June 2005
Report No. 05-020


Systems and Data Conversion for the
New Financial Environment




             AUDIT REPORT
                                                                                                         Report No. 05-020
                                                                                                                June 2005

                                    Systems and Data Conversion for the New Financial
                                    Environment

                                    Results of Audit
Background and
Purpose of Audit                    The FDIC had developed a general data conversion methodology tailored for the NFE
                                    implementation at the FDIC that presents considerations common among all data
The FDIC Office of Inspector        conversion activities and a brief description of the approach to converting each
General (OIG) contracted with       application. KPMG had reservations regarding the lack of detailed data conversion,
KPMG LLP to audit the               validation, and clean-up plans for the asset management, general ledger, vendor,
effectiveness of the New            purchase order, accounts receivables and cash management functions. KPMG also
Financial Environment (NFE)         noted that performance testing proceeded without a detailed plan and did not include
system development data and         critical tests. Lack of detailed plans and sufficient tests increased the likelihood of
systems conversion activities.      errors and omissions during the conversion process and limited the FDIC’s ability to
The NFE’s Transition Plan and       identify and resolve issues potentially impacting or interrupting NFE operations.
a Data Conversion Approach
and Plan contained numerous         The audit was terminated during fieldwork to avoid delaying the NFE implementation
interdependent tasks for NFE        schedule. KPMG was unable to collect sufficient, competent, and relevant evidence
system deployment. These            in a timely manner, as required by generally accepted government auditing standards,
tasks included completing user      to provide a reasonable basis for audit conclusions related to the objective. Therefore,
procedures for 23 key business      KPMG disclaims from providing any assurances. However, KPMG did suggest that
operations, ensuring data           its reservations and the associated risks be mitigated.
integrity for 35 retiring systems
and 23 interfacing legacy           Management Response
systems, and conducting user
acceptance testing for the core     The FDIC’s Division of Finance (DOF) responded that the conversion activity
financial system. The               planning and execution, coupled with the active involvement of data owners from the
Transition Plan defined the         impacted business areas in planning, testing, and validation, provided a high degree of
overall framework for the           confidence that the conversion of data would result in minimal and manageable
transition to the NFE system.       operational disruption and conversion errors. Regarding performance testing, DOF
The Data Conversion                 indicated that “tuning” of functions has continued following implementation in those
Approach and Plan presented         few situations where on-line response time or batch throughput was found to need
the methodology for data            improvement. DOF expects this process to continue for several months, but no
conversion activities (legacy       interruptions or delays in service are anticipated.
systems and PeopleSoft
applications). NFE                  Due to the audit being terminated, we cannot confirm or evaluate the adequacy of the
deployment was scheduled for        various actions that DOF indicates were taken either in response to KPMG’s
May 2, 2005.                        reservations or in the course of planned conversion activities.

The audit objective was to          NFE Conversion Stages
determine whether the systems
and data conversion plans and
activities were adequate to
minimize the risk of errors and
omissions during
implementation of the NFE.




To view the full report, go to
                                         Source: New Financial Environment Data Conversion Approach and Plan,
www.fdicig.gov/2005reports.asp
                                         Version 1, October 31, 2003
                                       Table of Contents



Part I:

           Report by KPMG LLP
           Systems and Data Conversion for the New Financial Environment   I-1


Part II:
           Corporation Comments and OIG Evaluation                         II-1
           Corporation Comments                                            II-2
      Part I


Report by KPMG LLP
Systems and Data Conversion for the New Financial
                  Environment

               Prepared for the
      Federal Deposit Insurance Corporation
          Office of Inspector General
                            TABLE OF CONTENTS

EXECUTIVE SUMMARY                                                    3

      Results of Limited Review                                      3

BACKGROUND                                                           4

      NFE System Implementation                                      4
      NFE Test Strategy                                              5
      Data and Systems Conversion                                    5

THE FDIC’S DATA AND SYSTEMS CONVERSION APPROACH                       6
AND KPMG’S RESERVATIONS

      Data Conversion                                                 6
      Systems Conversion                                              9
      Conclusion                                                     10

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY                        11

APPENDIX B: RISK ASSESSMENT APPROACH                                 14

TABLES
Table 1: NFE Conversion Development Cycle                            7
Table 2: Reservations Associated With Data Conversion Activities     8
Table 3: Reservation Associated With Systems Conversion Activities   9

FIGURE
Risk Assessment Matrix                                               15




                                      I-2
EXECUTIVE SUMMARY

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG)
contracted with KPMG LLP to provide professional audit services. KPMG was tasked
under the contract to audit the effectiveness of the FDIC’s New Financial Environment
(NFE) system development data and systems conversion activities. The objective of the
audit was to determine whether systems and data conversion plans and activities were
adequate to minimize the risk of errors and omissions during implementation of the NFE.

KPMG was unable to conduct its work in accordance with generally accepted government
auditing standards. Specifically, KPMG was unable to collect sufficient, competent, and
relevant evidence in a timely manner as required by generally accepted government
auditing standards to provide a reasonable basis for audit conclusions related to the audit
objective. In addition, the scope of work performed did not support an opinion regarding
our objective, the adequacy of internal control, or compliance with applicable regulations
related to NFE systems and data conversion. Further, FDIC management informed us
that providing access to the OIG would “definitely impact” the NFE implementation
schedule. As a result, the audit was terminated on April 6, 2005, and KPMG disclaims
from providing any assurances with respect to the audit objective. A detailed discussion
of our audit objective, scope, and methodology is provided in Appendix A of this report.
This report provides information on our reservations with regard to the objective based on
the limited review that KPMG performed.

KPMG evaluated data and systems conversion activities according to guidelines
established by the National Institute of Standards and Technology (NIST), the Capability
Maturity Model Integration (CMMI) for systems engineering, and Joint Financial
Management Improvement Program (JFMIP) for government financial systems. KPMG
also considered relevant guidelines from the Government Accountability Office (GAO)
and the Office of Management and Budget (OMB) that are related to the implementation
of the Federal Financial Management Improvement Act (FFMIA) and OMB Circular
No. A-127, Financial Management Systems.

Results of Limited Review
The FDIC had developed a general data conversion methodology that was tailored for the
NFE implementation at the FDIC that presents considerations common among all data
conversion activities (legacy systems and PeopleSoft applications) and a brief description
of the approach to converting each application. The FDIC also has reported considerable
progress in completing most data and systems conversion activities considered critical to
the NFE deployment, which occurred on May 2, 2005.

Although KPMG cannot express an overall opinion regarding the systems and data
conversion activities, the limited work performed did identify several reservations related
to the data conversion process, data validation testing, and data clean-up planning that




                                            I-3
warranted management attention. Additionally, KPMG noted performance test concerns
in preparation for systems conversion to NFE.

BACKGROUND

On December 10, 2001, the FDIC’s Board of Directors approved the purchase and
implementation of a commercial-off-the-shelf solution to support an enterprise-wide
financial environment for the FDIC. The decision was based on the need to modernize
the FDIC’s complex and aging legacy financial systems. In October 2002, the FDIC
contracted with Accenture LLP (Accenture) to assist the Corporation in replacing its
financial systems with a PeopleSoft financials solution. This effort, called the New
Financial Environment project, is jointly managed by the FDIC’s Division of Finance
(DOF) and Division of Information Technology (DIT). The current NFE project timeline
is separated into two phases of deployment. The first phase called for deployment of core
PeopleSoft financial modules in May 2005. Phase II deployment includes the PeopleSoft
Enterprise Performance Management suite to assist in FDIC strategic decision-making
activities in the areas of Budgeting and Receivership Service Billing by July 1, 2005 and
Activity Based “Cost” Management by September 1, 2005.

NFE System Implementation

The implementation of the NFE system affects many systems throughout the FDIC.
Therefore, the deployment of the system will, in varying degrees, involve users from each
division and office of the Corporation. The NFE project team has coordinated the
transition activities with the business owners. These activities include understanding and
documenting re-engineered business processes and preparing for data conversion.

To prepare for NFE implementation, Accenture developed a Transition Plan and a Data
Conversion Approach and Plan, which contained numerous interdependent tasks that had
to be performed for NFE system deployment. Some of these tasks included completing
user procedures for the 23 key business operations, ensuring data integrity for 35 retiring
systems and 23 interfacing legacy systems, and conducting user acceptance testing for the
core financial system. The Transition Plan defined the overall framework for the
transition to the NFE. The plan listed the transition activities; stakeholder
responsibilities; communication methods for stakeholders; NFE and other FDIC system
interfaces; and the management, control, and reporting mechanisms for transition
progress. The Data Conversion Approach and Plan presented the methodology for the
conversion of data from the legacy systems to the PeopleSoft applications. Although this
plan was general in nature, more detailed design documents for application-specific data
conversions had been prepared.

The plan and design documents described above also defined activities for pre-conversion
and cutover phases of data and systems conversion. Pre-conversion activities included
tasks prior to and leading up to the conversion, such as determining the scope and




                                            I-4
approach or method, developing the conversion plan, performing data clean-up and
validation, ensuring data integrity, and conducting necessary analysis and testing. Cutover
tasks to convert the legacy data to the new system were to include testing system process
and data edits; testing system interfaces, both incoming and outgoing; managing the
critical path of system implementation; supervising workload completion; and performing
data reconciliation.

NFE Test Strategy

The FDIC had developed a rigorous multi-stage test strategy and schedule for NFE to
ensure that the system will function as designed and meet user’s needs. Key components
of this test strategy included Systems Integration Testing (SIT) and User Acceptance
Testing (UAT). Additionally, the FDIC had established independent quality assurance
testing for NFE that was performed by the FDIC Configuration and Quality Management
Staff (CQMS).

•   SIT ensures that all business functions perform as designed on an end-to-end basis
    across the NFE applications and platforms. SIT verifies that the application modules
    interact correctly within PeopleSoft financial modules, including all interfaces that
    send or receive transactional data to/from the NFE.
•   UAT is the final round of NFE testing, and its purpose is to secure the agreement of
    all business process owners that the PeopleSoft modules, as modified and configured,
    and the impacted FDIC legacy application interfaces meet the business owners’
    current, stated business requirements when used in conjunction with processes and
    procedures developed by the business owners and the NFE business planning team.
•   CQMS performed quality assurance test activities over a 3-week period starting on
    November 1, 2004. The scope of this review, as stated in the CQMS NFE Test Plan
    dated September 22, 2004, was to verify the effectiveness of the SIT performed
    against NFE core financial modules and interfaces.

Data and Systems Conversion

Of the many critical tasks necessary to successfully implement a new financial system,
data conversion is one of the most frequently underestimated. From the outset, it should
be understood that financial systems data conversion is a complex and difficult task that
requires highly skilled staff for successful completion. If data conversion is done right,
the new system has the opportunity for success. However, converting data incorrectly has
lengthy and long-term repercussions.

Data conversion is defined as the automated or manual modification of existing data to
enable the data to operate with similar functional capability but in a different
environment. Automated conversion is the process of transferring selected transactions
from the legacy system to the new one through the use of an automated tool or custom-
developed software. The volume of data and difficulty in performing an automated




                                            I-5
conversion are examples of factors considered in determining whether to use a manual or
automated conversion process. Other specific issues that apply uniquely to the
replacement of a financial system include the identification of specific open transactions
and beginning balances to be established, consideration of data conversion approaches
and implications, and analysis and reconciliation to validate transactions and data.

Systems conversion relates to activities to prepare a new system for deployment in its
operational environment, including the planning and tests of system performance as a
means of addressing any performance-related issues that may impact the availability of a
new system to its user community.

THE FDIC’S DATA AND SYSTEMS CONVERSION APPROACH AND KPMG’S
RESERVATIONS

The FDIC’s approach in addressing data and systems conversion activities and KPMG’s
reservations are addressed in the following sections.

Data Conversion

The FDIC had developed a high-level Data Conversion Approach and Plan, initially dated
October 31, 2003, for the NFE implementation at the FDIC. The approach provided
guiding principles common among all data conversion from legacy systems to PeopleSoft
applications that included, for example:

•   determination of what data will be converted based on the “To-Be” processes
    defined, rather than the “As-Is” legacy data;
•   data conversion will be automated when justified (volume, reusability, or cost
    savings);
•   legacy data will undergo data cleansing to reduce data volume and minimize data
    integrity issues;
•   data conversion methods will be tested for their limitations in “mock” conversions
    prior to the actual conversion; and
•   converted data will be used in system and user acceptance testing to help identify data
    conversion and data integrity issues.

Additionally, as shown in Table 1, the approach identifies major development stages and
the objectives for each stage of the conversion process that each major NFE conversion
area would undergo.




                                            I-6
Table 1: NFE Conversion Development Cycle

 Assess                       Analyze                       Design                  Build                   Implement
 Identify the legacy          Conduct further analysis      Create translation      Develop conversion      Schedule
 systems data                 into the data types                                   program modules         conversion
                              identified during the
                              Assess stage
 Define the requirements      Create data maps &            Create manual           Verify that data        Extract clean legacy
 for historical data          validation rules              conversion              clean-up efforts are    data
                                                            procedures (if          on schedule
                                                            applicable)
 Assess the data quality in   Identify specific data        Prepare detailed        Execute test plans      Execute official
 legacy systems               extraction criteria from      design specifications                           conversion
                              legacy systems
 Determine data volumes       Finalize selection of         Verify that data        Define conversion       Reconcile converted
                              specific conversion tools     clean-up efforts are    cutover plan            data to legacy data,
                                                            on schedule                                     and obtain sign-off
 Identify crosswalks          Develop templates and         Develop verification    Execute “mock”
                              standards for the design      and sign-off            conversions and
                              stage                         procedures              verify
 Identify the best method     Update the work plan, and     Update the work         Resolve problems
 of conversion                revise time estimates         plan, and revise time   with data and/or
                                                            estimates               conversion
                                                                                    specifications
 Estimate analysis time,                                                            Update the work
 and prepare an overall                                                             plan, and revise time
 work plan                                                                          estimates



KPMG noted that the NFE Data Conversion Approach and Plan also provided a brief
description of the approach for converting each application where automated conversions
and data clean-up were planned for asset management, general ledger, vendor, and
purchase order functions. KPMG also noted that manual conversions were planned for
accounts receivable and cash management functions.

NFE Project Management documentation shows that performance of conversion
development activities began in October 2003 with the development of an overall
strategic development plan, development of design documents from November 2003
through April 2004, and mock conversions from May 2004 through March 2005.

KPMG has summarized its reservations associated with data conversion activities in
Table 2 on the next page and has assigned a risk ranking based on risk-management-
assessment criteria defined for the NFE project. See Appendix B for a description of the
risk assessment approach.




                                                          I-7
Table 2: Reservations Associated With Data Conversion Activities
                                                                                                               Risks
                Reservations                                    Potential Impact                        High   Medium   Low

    Data Conversion Process
    • No detailed conversion plan or             •   Data conversion requirements not adequately
        approach for major automated                 defined or addressed, increasing likelihood of
        conversion (AM, GL, PO, and                  errors and omissions.
                                                                                                         √
        Vendor).a
    • No detailed plan or approach for           •   Risk of errors and omissions increases without
        manual conversions (Accounts                 appropriately defined, critical pre-data            √
        Receivable, Cash Management).                conversion activities.
    •   Data conversion detail design            •   Account balances not traceable to audited
        documents for most automated                 sources from the legacy systems.
        conversion areas lack both
        functional and technical
        information (e.g., reasons for
        approaches, references to data                                                                   √
        clean-up/ validation approaches,
        data mapping of source/target
        fields).


    Data Validation Testing
    •   No standards or formal planning          •   Data integrity issues may exist without
        regarding data validation for most           validation rules defined and implemented.           √
        major automated conversion areas.
    •   Testing of converted data may not        •   Without the separation, testers cannot easily
        be adequately addressed. UATb                identify additional testing efforts required for
        combines new and converted data              data validation, increasing risks of errors and
        into the same test script (e.g., focus       omissions (e.g., appears that FDIC incorporated
        in AM appears to have been on                KPMG validation list suggestions into AM for                √
        newly created scripts).                      testing converted assets from April 1 through
                                                     April 7, 2005).


    Data Conversion Results
    •   Purchase orders are converted into       •   Approximately 1,000 out of 5,000 partially paid
        NFE without supporting detail, and           POs are potentially at risk of duplicate            √
        the amount of time to search                 payment.
        supporting detail from the legacy        •   Potential inability to pay vouchers in a timely
        systems, including impact on                 manner may cause the FDIC to be in violation        √
        users’ workload is unknown.                  of the Prompt Payment Act.
        Consequently, users will not be          •   Having to maintain the legacy systems and the
        able to determine through NFE                                                                    √
                                                     PeopleSoft application may create extreme
        whether an invoice for a converted           confusion and hardship from both an
        PO was previously paid.                      operational and technical support perspective.


    Data Clean-up
    •   No data clean-up plans for major         •   Errors may be perpetuated in NFE, causing           √
        automated conversion areas.                  major post-reconciliation efforts to occur.
a
AM – Asset Management, GL – General Ledger, PO – Purchase Order.
b
UAT – User Acceptance Testing.




                                                             I-8
        Systems Conversion

        FDIC management stated that the NFE performance testing did not follow a typical
        system development life cycle’s performance test approach. For the NFE, high-level
        performance measures were needed in the statement of work (SOW) and were used as the
        basis for performance planning throughout all levels of testing. Specifically, the SOW
        stated that results are acceptable for:

        •    5 seconds or less for online transactions on the FDIC’s metropolitan area network and
             15 seconds or less on the wide area network;
        •    2 minutes or less for queries of little complexity;
        •    5 minutes or less for queries of moderate complexity; and
        •    10 minutes or less for queries of high complexity.

        Additionally, the SOW stated that the estimated range of transaction volume for the NFE
        is from a low range of 11,896,500 with 25 concurrent users to an estimated high range of
        21,274,000 with 150 concurrent users during a crisis. According to FDIC management,
        the criteria were based on the current legacy systems’ performance. The metrics
        described form the basis for five cycles of performance testing where each is intended to
        do the following:

        •    Cycle One – NFE On-line Stress Test
        •    Cycle Two – Corporate Human Resources Information System, including
             Supplemental Payments
        •    Cycle Three – Major PeopleSoft Tuning
        •    Cycle Four – Query/Report
        •    Cycle Five – Batch Window Tuning

        KPMG has summarized its reservation associated with systems conversion activities in
        Table 3 below and has assigned a risk ranking based on risk management assessment
        criteria defined for the NFE project. See Appendix B for a description of the risk
        assessment approach.

Table 3: Reservation Associated With Systems Conversion Activities
                                                                                                       Risks
                    Reservation                           Potential Impact                      High   Medium   Low

 Systems Conversion – Performance Testing
 • System performance testing proceeded   • Unpredictable system performance could
     without a detailed test plan and omitted   seriously impact or interrupt NFE operations.     √
     critical tests of performance.




                                                           I-9
Conclusion

KPMG recognizes that the reservations identified may not be addressed prior to NFE
scheduled implementation. Also, audit work was not completed due to the scope
limitation previously discussed. Therefore, the report contains no recommendations.
However, KPMG suggests that the Directors of DOF and/or DIT and the NFE project
management team review the risks identified and develop risk mitigation procedures as
outlined in the NFE risk management plan for addressing the reservations at an
appropriate time.




                                          I-10
            APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of the audit was to determine whether the systems and data conversion
plans and activities were adequate to minimize the risk of errors and omissions during
implementation of the NFE.

Scope

The scope of coverage in meeting the audit objective focused on data and systems
conversion activities critical to NFE deployment, which included the following:
• Evaluate the effectiveness of NFE data and systems conversion planning and test
   activities critical to NFE deployment for NFE modules where automated conversions
   were to take place.
• Focus on performance test issues related to systems conversion activities.
• Evaluate data conversion activities for NFE interfaces to legacy systems for three of
   eight selected NFE legacy interfaces considered critical to deployment. The interface
   systems included the Control Totals Module as the primary receivership and
   subsidiary financial reporting system, Electronic Travel Voucher System, and
   Dividend Processing System.
• Evaluate effectiveness of “mock” data conversions for accuracy and completeness.
• Evaluate effectiveness of system performance tests as an accurate predictor of
   production performance in identifying any performance problems for corrective action
   prior to system deployment.

Scope Limitation

The audit of NFE systems and data conversion was terminated on April 6, 2005 before it
was completed. As previously stated, KPMG was unable to collect sufficient, competent,
and relevant evidence in a timely manner as required by generally accepted government
auditing standards to provide a reasonable basis for audit conclusions related to our
objective. More specifically, the scope of audit work performed did not support an
opinion regarding our objective, the adequacy of internal control, or compliance with
applicable regulations related to NFE systems and data conversion. In addition, had the
audit been completed, other matters may have come to our attention concerning the
adequacy of overall NFE implementation.

Beyond our concerns regarding compliance with auditing standards, our goal was to
complete our audit work and provide management with findings, conclusions, and
recommendations, if any, that management could address prior to NFE implementation to
achieve maximum benefit. However, due to NFE implementation activities, NFE project
managers and team members were often not available to respond in a timely manner to
our requests for interviews or documentation. In fact, FDIC management informed us




                                           I-11
                                                                            APPENDIX A

that providing access to the OIG would “definitely impact” the NFE implementation
schedule. With data conversion activities still in process and NFE implementation
imminent, we could not obtain sufficient information or perform necessary procedures
regarding the data conversion activities to achieve our goal or to accomplish our stated
audit objective.

Methodology

KPMG performed the following work related to the audit objectives before terminating
the effort:
• Conducted interviews with DIT and DOF officials who were responsible for
    managing and implementing the NFE project as well as representatives from
    Accenture LLP, the consulting firm hired by the FDIC to provide NFE
    implementation services, including performance of system development test
    activities. We also spoke with business process leads from several divisions to
    determine their involvement in data conversion activities such as data reconciliation
    and to obtain an understanding of NFE conversion activities, including procedures
    and practices.
• Reviewed NFE system performance, systems conversion, and data conversion
    documentation.
• Performed data analysis to sample the completeness and accuracy of asset conversion.
• Obtained and reviewed conversion test script and results for AM including review of
    reconciliation processes applied.
• Obtained a data extract of purchase orders from the Financial Information
    Management System to perform data analysis to determine conversion volume,
    feature workload, and risk of duplicate payments.

KPMG also determined the risk levels for the NFE project related to data and systems
conversion activities where specific risks are likely to occur.

Prior Audit Coverage

The OIG has issued the following reports related to the NFE:

•   Audit Report No. 05-019 entitled, FDIC’s New Financial Environment Testing, dated
    June 6, 2005, which addressed the adequacy of NFE’s test and defect management
    processes.
•   Audit Report No. 05-007 entitled, Management Controls Over the Re-baselined New
    Financial Environment Project, dated February 18, 2005, which addressed whether
    the FDIC has established adequate management control over the re-baselined NFE
    project.




                                           I-12
                                                                         APPENDIX A

•   Audit Report No. 03-045 entitled, New Financial Environment Scope Management
    Controls, dated September 29, 2003, which addressed whether the FDIC had
    implemented adequate controls for ensuring that the scope of the NFE project was
    effectively managed.
•   Audit Report No. 03-016 entitled, The New Financial Environment Project Control
    Framework, dated March 5, 2003, which addressed whether the FDIC had established
    a control framework for the NFE project.
•   Audit Report No. 03-002 entitled, Preaward Review of the New Financial
    Environment Project, dated October 7, 2002, which provided observations on selected
    procedures and documents related to the NFE Request for Proposal.
•   Evaluation Report No. 01-004 entitled, The New Financial Environment Project,
    dated December 7, 2001, which assessed the reasonableness of the NFE cost-benefit
    analysis and the financial systems architecture.

KPMG conducted field work in Washington, D.C., and at the FDIC’s Virginia Square
facility from January through March 2005. Based on the scope limitation described
earlier, KPMG was unable to conduct this audit in accordance with generally accepted
government auditing standards. Therefore, KPMG disclaims from providing any
assurances with respect to the objective of the audit.




                                          I-13
                  APPENDIX B: RISK ASSESSMENT APPROACH

Risk Ratings
Per CMMI and industry standard practices, software projects should establish a risk
management strategy that includes categorization of risks identified to develop a
mitigation strategy that reduces risks to levels acceptable to management. KPMG
assessed the potential impact of risks identified in this review based on professional
judgment and applicable risk management criteria defined for the NFE project by the
FDIC. The NFE project assesses risks based on probability of occurrence and impact as
follows:

Probability
The likelihood of risk occurrence is quantitatively or qualitatively rated on the following
scale:
       Probability                 Uncertainty Statement                  Evaluation of
                                                                       Impact (see Impact)
          > 80%                    Extreme, Almost certain                       5
        61%-80%                          High, Likely                            4
        41%-60%                            Medium                                3
        21%-40%                               Low                                2
         1%-20%                  Very Low, Highly unlikely                       1

Impact
Impact is an estimate of the overall scale of the impact following an occurrence of each
risk. Impact measures the severity of adverse affects, or the magnitude of a loss, if the
risk comes to pass and is rated on the following scale:

       5 - Critical impact; threatens overall success of NFE on a long-term basis.
       4 - High impact; significant disruption to successful delivery of NFE objectives,
       products, and benefits.
       3 - Medium impact; significant disruption to NFE schedule, cost, and products
       over the medium term.
       2 - Low impact; progress disrupted with moderate to low extensions to schedule
       and cost, across short term.
       1 - Very low impact; slight exposure.

The two variables, impact and probability, are combined to assess the overall risk
category as displayed in the following matrix.




                                            I-14
                                                                                  APPENDIX B

Risk Assessment Matrix
              Impact

          5 – Critical
          4 – High                                                            3

          3 – Medium                                   2

          2 – Low               1

          1 – Very Low
                            Very Low  Low     Medium    High    Extreme
                            0 – 20% 21 – 40% 41 – 60% 61 – 80% 81 – 100%
                                                 Probability
Source: The FDIC New Financial Environment Risk Management Plan developed by Accenture.

Risk categorization is based upon factors where specific risks are likely to occur
including technical, operational, external, resource/cost, and schedule. Overall risks
assigned by KPMG focused on issues impacting the FDIC’s ability to achieve NFE
objectives from both a technical and operational nature. These factors, referred to as risk
drivers, may impact both Cost and Schedule risks.

Each risk is described further below:

Technical
Technology-based risks consider the non-achievement of the application specifications
and benefits expected. These risks include new/non-standard platform technology,
integration problems with existing systems, migration problems, performance
expectations not achieved, environment complexity and functionality, and system
operability.

Operational
Operational-based risks focus on the peripheral organizational and business operational
re-engineering changes arising from the NFE implementation effort. These risks consider
both the transitional and the long-term effects of the NFE’s introduction, including the
organizational and behavioral changes required, the human and physical resource
planning, and communication required to facilitate a smooth transition to the new
structure.

External
External-based risks consider the environmental factors largely outside of the control of
the NFE Project Management that can directly or indirectly affect the successful delivery
of the NFE. Risks arising from legislative regulations, legal requirements, and the
strategic direction and priority conflicts of a controlling body are profiled under this
category.



                                              I-15
                                                                            APPENDIX B

Resource/Cost
Cost-based risks outline the non-achievement of the financial benefits of NFE. These
cost risks include additional costs in changing or solving design, application program, or
operational problems.

Schedule
Schedule-based risks focus on the non-achievement of the biggest system benefits within
the specified time frame. These schedule-based risks arise from extensions as a result of
scope changes, resource unavailability, and additional schedule extensions for solving the
risks as discussed earlier in Resource/Cost.




                                           I-16
                Part II

Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

We provided the Director, DOF, a draft of this report dated April 22, 2005. The report did not
contain a recommendation, and a written response was not required. However, DOF provided a
written response, which is presented in its entirety, beginning on page II-2, and is summarized
below, along with our evaluation of the response.

DOF Response: DOF management responded that it believes that the NFE conversion approach
was well planned and well executed. Further, DOF stated that where known data conversion
weaknesses existed, such as those associated with the purchase order conversion described in our
report, manual controls and actions were taken to minimize the risks to the Corporation.

With respect to NFE performance testing, DOF indicated that “tuning” of some functions has
continued during the period immediately following implementation in a few situations where
on-line response time or batch throughput needed improvement. As with any major new
implementation, this process is expected to continue for several months, but no interruptions or
delays in service are anticipated.

DOF also indicated that since the OIG was completing its field work on NFE testing, the timing
of the additional audit on NFE systems and data conversion efforts was less than optimal as the
entire NFE project team was focused on completing the necessary tasks in anticipation of NFE’s
May 2, 2005 go-live date. DOF expressed appreciation for our decision to terminate the audit
and believed it was appropriate under the circumstances.

OIG Evaluation of Response: Due to the audit being terminated, we cannot confirm or
evaluate the adequacy of the various actions that DOF indicates were taken either in response to
KPMG’s reservations or in the course of planned conversion activities.

With regard to the timing of our two NFE-related audits, the FDIC’s concurrent scheduling of
two critical system development activities — testing and conversion — made it necessary for the
OIG to schedule the two audits in a manner that resulted in overlapping timeframes. However,
as discussed earlier in the report, we terminated this audit when FDIC management informed us
that providing access to the OIG would “definitely impact” the NFE implementation schedule.
While we are pleased that DOF agreed with our decision to terminate the audit, it is important to
note that we independently made the decision after carefully assessing the cost/benefit of
continuing the audit, including the impact of the audit on the NFE project team’s ability to meet
the NFE go-live date.




                                               II-1
II-3
